VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                      Veterans Health 

                                                                      Administration 

                                                                               Audit of 

                                                                    Engineering Service Purchase 

                                                                           Card Practices 

                                                                      at the Ralph H. Johnson 

                                                                         VA Medical Center, 

                                                                     Charleston, South Carolina 





                                                                                          April 17, 2014
                                                                                          13-02668-124 

             ACRONYMS AND ABBREVIATIONS 


FAR          Federal Acquisition Regulation
OIG          Office of Inspector General
VAMC         Veterans Affairs Medical Center
VISN         Veterans Integrated Service Network
VHA          Veterans Health Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov


              (Hotline Information: http://www.va.gov/oig/hotline) 

                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC



                                Notice of Correction 

Post publication review identified two minor, but notable, errors in this report. The errors have
been corrected in the body of this report and are outline below:

On page 2, paragraph 3, originally read:

“Out of 139 purchases reviewed, Charleston VAMC Engineering Service made 40 unauthorized
commitments totaling $86,100 that avoided competition requirements. The 40 unauthorized
commitments included 35 purchases valued at about $69,300 that cardholders split and 5 purchases
valued at about $13,800 that exceeded the micro-purchase limit for services. When requests for
services exceed single purchase limits, VA requires cardholders to forward procurement requests to
warranted contracting officers who have spending limits above the micro-purchase threshold.”

It was corrected to read (correction highlighted):

“Out of 139 purchases reviewed, Charleston VAMC Engineering Service made 40 unauthorized
commitments totaling $83,100 that avoided competition requirements. The 40 unauthorized
commitments included 35 purchases valued at about $69,300 that cardholders split and 5 purchases
valued at about $13,800 that exceeded the micro-purchase limit for services. When requests for
services exceed single purchase limits, VA requires cardholders to forward procurement requests to
warranted contracting officers who have spending limits above the micro-purchase threshold.

Additionally, on page 14, Table 2, originally read:

                                                    90%             90%
                                                                                Sample
                                                 Confidence      Confidence
                                     Margin                                   Transactions
     Description      Estimated                   Interval        Interval
                                     of Error                                    With
                                                   Lower           Upper
                                                                               Condition
                                                   Limit           Limit
    Unauthorized
    Commitments    $360,000          $85,600          $274,000    $446,000          40
    Value
    Unauthorized
    Commitments       11%               3%              8%          14%
    Percent
    Lacked
    Sufficient
    Supporting     $768,000          $396,000         $372,000   $1,200,000         33
    Documentation
    Value
    Lacked
    Sufficient
    Supporting        23%              11%              11%         34%
    Documentation
    Percent
    Combined      $1,100,000         $400,000         $660,000   $1,500,000         65

                                                                                                  i
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


    Value
    Combined
                         32%           11%             20%          43%
    Percent


It was corrected to read (correction highlighted):

                                                        90%          90%
                                                                                 Sample
                                                     Confidence   Confidence
                                     Margin                                    Transactions
      Description      Estimated                      Interval     Interval
                                     of Error                                     With
                                                       Lower        Upper
                                                                                Condition
                                                       Limit        Limit
    Unauthorized
    Commitments    $360,000           $85,600         $274,000     $446,000          40
    Value
    Unauthorized
    Commitments       11%               3%              8%           14%
    Percent
    Lacked
    Sufficient
    Supporting     $768,000          $396,000         $372,000    $1,200,000         33
    Documentation
    Value
    Lacked
    Sufficient
    Supporting        23%               11%             11%          34%
    Documentation
    Percent
    Combined
                  $1,100,000         $400,000         $660,000    $1,500,000         65
    Value
    Combined
                      31%               11%             20%          43%
    Percent




                                                                                                 ii
                   Report Highlights: Audit of VHA’s 

                   Engineering Service Purchase Card 

                   Practices at VAMC Charleston, SC



Why We Did This Audit                          purchase card training. As a result, we
                                               estimated     that   Charleston  VAMC’s
VA’s Office of Inspector General Hotline       Engineering Service cardholders made about
Division received an allegation that           $274,000 of unauthorized commitments and
Engineering Service employees at the Ralph     approximately $372,000 of purchases that
H. Johnson, VA Medical Center (VAMC),          lacked sufficient documentation.
Charleston, SC, were splitting purchases to
circumvent the $3,000 micro-purchase limit.    What We Recommended
We expanded the scope of the audit to
determine the extent Engineering Service       We recommended the Veterans Integrated
employees inappropriately used purchase        Service Network (VISN) 7 Director review
cards from October 2011 through May 2013.      Charleston VAMC Engineering Service’s
                                               purchase card transactions for unauthorized
What We Found                                  commitments and purchases lacking
                                               sufficient documentation and process
We substantiated the allegation that           necessary ratification and payment recovery
Charleston VAMC Engineering Service            actions. Additionally, we recommended the
employees split purchases and identified       VISN 7 Director improve purchase card
improper purchase card payments.         Of    practices by implementing monitoring
139 sampled     purchases      Engineering     mechanisms that ensure improved oversight
Services made during the period of October     and providing sufficient training.
2011 through May 2013, 40 were
unauthorized     commitments       totaling    Agency Comments
$83,100 that     avoided       competition
requirements.   The     40    unauthorized     The VISN 7 Director concurred with
commitments included 35 purchases valued       the recommendations and provided an
at about $69,300 that cardholders split and    acceptable action plan.
5 purchases valued at about $13,800 that
exceeded the micro-purchase limit for
services.

Engineering Service employees also made
33 purchases that we could not determine
whether payment was proper because of
insufficient documentation. The value of
these improper payments was about                        LINDA A. HALLIDAY
$55,000.                                             Assistant Inspector General
                                                      for Audits and Evaluations
This occurred because of ineffective
oversight of cardholder transactions and
inadequate cardholder and approving official
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 


Results and Recommendations ........................................................................................................2
 


    Finding                Charleston VAMC Engineering Service Employees Made Unauthorized 

                           Commitments and Improper Payments ...............................................................2
 


                           Recommendations ...............................................................................................7
 


Appendix A                 Background ...................................................................................................... 10

 

Appendix B                 Scope and Methodology................................................................................... 11

 

Appendix C                 Statistical Sampling Methodology ................................................................... 13
 


Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments..................................................................................................... 15
 


Appendix E                 Veterans Integrated Service Network 7 Director Comments ........................... 16

 

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments .................. 21

 

Appendix G                 Report Distribution........................................................................................... 22
 

                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC



                    INTRODUCTION
Allegation          In April 2013, the VA’s Office of Inspector General (OIG) Hotline Division
                    received an allegation that Engineering Service employees at the Ralph H.
                    Johnson VA Medical Center (VAMC), Charleston, SC, were splitting
                    purchases to circumvent the $3,000 micro-purchase limit. We expanded the
                    scope of the audit to determine the extent Charleston VAMC Engineering
                    Service employees inappropriately used purchase cards.

Purchase Card       The General Services Administration’s SmartPay2 program provides
Program             purchase cards to Federal agencies through contracts negotiated with
                    contractor banks. Purchase cards provide Federal agencies with a purchase
                    and payment tool that implements simplified acquisition procedures, which
                    streamline the procurement process by allowing for quick ordering and
                    paying of supplies and services.

Micro-              VA Financial Policies and Procedures, for Government Purchase Card use,
Purchases           require cardholders to use the Government purchase card for all micro-
                    purchases. The Federal Acquisition Regulation (FAR) defines a micro-
                    purchase as an acquisition of supplies using simplified acquisition
                    procedures, where the aggregate amount does not exceed $3,000. FAR
                    establishes lower micro-purchase thresholds of $2,500 for acquisitions of
                    services subject to the Service Contract Act and $2,000 for construction-
                    related acquisitions subject to the Davis-Bacon Act.

Responsible         VA’s Office of Finance provides VA purchase card policy and procedures.
VA Program          VA’s Office of Acquisition and Logistics is responsible for developing and
Offices
                    assessing compliance with procurement policy and procedures. The
                    Veterans Health Administration’s (VHA) Procurement and Logistics Office
                    is responsible for oversight of VHA’s Purchase Card Program. During 2013,
                    VA reported making over 5.8 million purchase card transactions valued at
                    $3.5 billion.

Charleston          Charleston VAMC’s Engineering Service is responsible for construction
VAMC                projects and for improving, maintaining, and operating the VAMC’s physical
Engineering
Service
                    plant and equipment. Engineering Service consists of several sections,
                    including construction management and maintenance and operations. These
                    sections are responsible for providing various services, such as maintaining
                    electrical, mechanical, and boiler plant operations.

Other                  Appendix A provides additional background information.
Information
                       Appendix B outlines the audit scope and methodology.
                       Appendix C details the audit statistical sampling methodology.




VA Office of Inspector General                                                                   1
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC



                    RESULTS AND RECOMMENDATIONS
Finding             Charleston VAMC Engineering Service Employees
                    Made Unauthorized Commitments and Improper
                    Payments

                    We substantiated the allegation that Charleston VAMC Engineering Service
                    employees split purchases inappropriately and identified improper purchase
                    card payments. Of 139 sampled purchases made by Engineering Service
                    cardholders from October 2011 through May 2013, 40 were unauthorized
                    commitments totaling $83,100 that avoided competition requirements. The
                    40 unauthorized commitments included 35 purchases valued at about
                    $69,300 that cardholders split and 5 purchases valued at about $13,800 that
                    exceeded the micro-purchase limit for services. Engineering Service
                    employees also made 33 purchases that we could not determine whether
                    payment was proper because of insufficient documentation. The value of
                    these improper payments was about $55,000. This occurred because of
                    ineffective oversight of cardholder transactions and inadequate cardholder
                    and approving official purchase card training.

                    As a result, we estimated that Charleston VAMC’s Engineering Service
                    cardholders made about $274,000 of unauthorized commitments and
                    approximately $372,000 of purchases that lacked sufficient documentation.
                    Before estimating the combined sample results, we projected that
                    Engineering Service made $660,000 inappropriate purchases or about
                    20 percent of the approximately $3.4 million micro-purchases made from
                    October 2011 through May 2013.1

Inappropriate       Out of 139 purchases reviewed, Charleston VAMC Engineering Service
Purchase Card       made 40 unauthorized commitments totaling $83,100 (corrected, see page i)
Use
                    that avoided competition requirements. The 40 unauthorized commitments
                    included 35 purchases valued at about $69,300 that cardholders split and 5
                    purchases valued at about $13,800 that exceeded the micro-purchase limit for
                    services. When requests for services exceed single purchase limits, VA
                    requires cardholders to forward procurement requests to warranted
                    contracting officers who have spending limits above the micro-purchase
                    threshold.

                    The split purchases and those purchases that exceeded the micro-purchase
                    limit for services were unauthorized commitments. When cardholders, who
                    are only authorized to make micro-purchases, split or fragment an order to

                    1
                      The $660,000 is the lower limit of the combined totals and does not equal the sum of the
                    lower limit estimates for the separate projections of $274,000 and $372,000. This is because
                    these are three independent sample estimates. See Appendix C for a description of statistical
                    estimates.

VA Office of Inspector General                                                                                 2
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    avoid exceeding the micro-purchase limit, they make unauthorized
                    commitments. The VAMC had not requested ratification for any of the
                    identified unauthorized commitments.

Unauthorized

      Unauthorized commitments are agreements that are not binding solely
Commitments 
       because the Government representative who made them lacked the authority
                    to enter into that agreement on behalf of the Government. VA policies
                    prohibit employees from making unauthorized commitments because
                    unauthorized commitments circumvent FAR and eliminate an important
                    system of checks and balances in performing procurement functions.

                    FAR allows Federal agencies to perform ratification actions for unauthorized
                    commitments. Ratification is the act of approving an unauthorized
                    commitment by an official who has the authority to perform the action.
                    VHA’s Head of Contracting Activity has authority to ratify unauthorized
                    commitments made by employees at VA medical facilities. The Head of
                    Contracting Activity must deny requests for ratification of expenditures that
                    violate public law or are an unauthorized use of appropriated funds.

Split Purchases     We identified 35 split purchases made by 8 Engineering Service cardholders
                    that circumvented their $3,000 micro-purchase limit. The value of the
                    35 split purchases was about $69,300. Split purchases occur when
                    cardholders make multiple charges to the same vendor for one purchase in
                    order to circumvent single purchase limits. FAR states that cardholders may
                    not split a transaction to avoid the requirement to obtain competitive bids for
                    purchases over the micro-purchase threshold or to avoid established purchase
                    limits. In addition, VHA and the Charleston medical facility policies
                    prohibit cardholders from splitting purchases to circumvent their single
                    purchase limits.

                    Engineering Service cardholders made these purchases with the same vendor
                    on the same day for dollar amounts sometimes just under established
                    spending limits only minutes apart. The following examples highlight
                    how a cardholder circumvented competition requirements and the
                    $3,000 micro-purchase limit:

Example 1                   In May 2013, an Engineering Service cardholder
                            circumvented a $3,000 single purchase limit by splitting a
                            $5,483 order into two purchases. The cardholder purchased
                            key sets for $2,800 and locks sets for $2,683 from the same
                            vendor in two separate orders just 7 minutes apart.

Example 2                   Another cardholder continued this practice by splitting a
                            $5,927 order into two purchases in May 2013. The cardholder
                            purchased sign holder frames for $2,999 and slot holders with
                            magnets for $2,928 from the same vendor in two separate
                            orders just 2 minutes apart.

VA Office of Inspector General                                                                   3
                   Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Purchases            Engineering Service cardholders, who did not have warrants, made
Exceeded             unauthorized commitments totaling about $13,800 by completing five
Micro-Purchase
Limit for
                     purchases that exceeded the FAR $2,500 micro-purchase limit for acquisition
Services             of services subject to the Service Contract Act. Services covered by the Act
                     include operation, maintenance, or logistic support of a Federal facility. The
                     following examples highlight how cardholders exceeded the established
                     purchasing limit for acquiring services:
Example 3                    In February 2012, a cardholder purchased storage of patient
                             waiting room furniture for $2,555 and purchased storage and
                             delivery of furniture for $2,838. Both of these purchases
                             exceeded the FAR $2,500 purchase limit for services.

Example 4                    Engineering Service continued this purchasing practice when
                             another cardholder purchased artwork services for $2,999 in
                             March 2013.

                     Contracting officers have authority to bind VA to contracts that exceed the
                     $2,500 limit for acquiring services. FAR contracting procedures are
                     designed to maximize competition and obtain needed goods and services at
                     fair and reasonable prices.

 Lack of             Of Charleston VAMC Engineering Service’s 139 purchase card transactions,
 Sufficient          33 transactions lacked sufficient documentation to determine whether
 Documentation
                     payment was proper. These 33 transactions were valued at about $55,000.
                     Acceptable documentation includes packing slips, receipts, and any other
                     documents showing that goods or services were reasonably priced, received,
                     and for official use. The Office of Management and Budget Circular A-123,
                     Appendix C, Requirements for Effective Measurement and Remediation of
                     Improper Payments, defines an improper payment as follows.

                             An improper payment is any payment that should not have
                             been made or that was made in an incorrect amount
                             under statutory, contractual, administrative, or other
                             legally applicable requirements.      Incorrect amounts are
                             overpayments or underpayments that are made to eligible
                             recipients (including inappropriate denials of payment or
                             service, any payment that does not account for credit for
                             applicable discounts, payments that are for the incorrect
                             amount, and duplicate payments). An improper payment also
                             includes any payment that was made to an ineligible recipient
                             or for an ineligible good or service or payments for goods or
                             services not received (except for such payments authorized by
                             law). When an agency's review is unable to discern whether a
                             payment was proper as a result of insufficient or lack of
                             documentation, this payment must also be considered an
                             improper payment.

 VA Office of Inspector General                                                                   4
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    The U.S. Government Accountability Office’s Standards for Internal
                    Control in the Federal Government states that appropriate documentation of
                    transactions and other significant events need to be clearly documented and
                    be readily available. The following example highlights how a cardholder did
                    not maintain sufficient supporting documentation:

Example 5
                            In May 2012, a cardholder made three purchases of $500,
                            $1,200, and $2,500 totaling $4,200 for maintenance and
                            repairs. Although Engineering Service staff maintained the
                            purchase orders, they could not provide documentation, such
                            as invoices, to show the VAMC received the maintenance and
                            repairs.

                    Cardholders also did not consistently determine if vendors were eligible to
                    provide goods and services. VHA policy requires cardholders to document
                    General Service Administration’s Excluded Parties List System or System
                    for Award Management searches to confirm whether the Federal government
                    had debarred vendors that VHA was considering to use. The following
                    example highlights how a cardholder did not maintain sufficient
                    documentation for debarment searches.

 Example 6                  In August 2012, December 2012, and January 2013, a
                            cardholder made purchases for paint, supplies, and demolition
                            that totaled $4,835 from three vendors. The cardholder did
                            not maintain sufficient documentation showing searches for
                            debarred vendors. Documentation inadequacies included not
                            showing the date of the debarment search, the search was
                            before the purchase, and the name of the vendor that was
                            searched.

                    We verified the Federal government had not debarred the three vendors in
                    this example. Cardholders must maintain invoices and debarment search
                    results to show that payments for goods and services were reasonably priced
                    and purchased from eligible vendors. Without these documents, Charleston
                    VAMC management is unable to discern whether payments were proper.

Reasons for         Engineering Service cardholders made unauthorized commitments and a
Inappropriate       number of purchases lacked sufficient documentation. These actions
Purchase Card
Use
                    occurred because of insufficient oversight of cardholder transactions and
                    inadequate purchase card training.

Strengthened        Four Engineering Service approving officials did not use VHA’s required
Oversight Is        checklist to monitor cardholders’ use of purchase cards. The checklist
Necessary
                    provides a methodical procedure for approving officials to review purchases
                    for inappropriate practices, such as split purchases, illegitimate expenditure
                    of funds, spending that exceeds purchase card limits, and documenting that
                    vendors used are not debarred. Additionally, the VAMC’s oversight

VA Office of Inspector General                                                                   5
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    procedures did not include sufficient analysis of purchase card data to
                    identify purchase card risks and abuses. The VAMC Purchase Coordinator
                    did not use two available VA financial system reports that identify potential
                    split purchases—History of Transactions Report and Fiscal Daily Review
                    Report.

Improved            Six of 14 Charleston VAMC Engineering Service cardholders and 3 of
Training Is         5 approving officials had not completed required refresher training every
Needed
                    2 years. Adequate training is essential for cardholders and approving
                    officials to perform their duties effectively. VHA policy requires purchase
                    cardholders and approving officials to take online purchase card training
                    prior to issuance of purchase cards. The policy also requires refresher
                    training every 2 years for both purchase cardholders and approving officials.

                    After discussions with Charleston VAMC management during our site visit,
                    the facility initiated a purchase card training plan. The plan includes
                    face-to-face training for all new cardholders at the time of card delivery.
                    However, the plan did not address the required refresher training. Thus, the
                    VAMC Director needs to ensure Engineering Service cardholders complete
                    the required refresher training every 2 years.

Effects of          We estimated that Charleston VAMC’s Engineering Service cardholders
Inappropriate       made about $274,000 of unauthorized commitments and approximately
Purchase Card
Use
                    $372,000 of purchases that lacked sufficient documentation. Before
                    estimating the combined the sample results, we project that Engineering
                    Service made $660,000 inappropriate purchases or about 20 percent of the
                    approximately     $3.4    million    micro-purchases     made      from
                    October 2011 through May 2013.

Conclusion          We substantiated the allegation that Charleston VAMC Engineering Service
                    employees split purchases, exceeded the micro-purchase card limit for
                    acquiring services, and lacked sufficient documentation to support that card
                    payments were proper. Charleston VAMC’s weak purchase card controls
                    created an environment vulnerable to misusing purchase cards and to the
                    ineffectiveness of an important system of procurement checks and balances.

                    The VAMC needs to address the identified purchase card program control
                    weaknesses to ensure cardholders protect the Government’s interests when
                    obtaining goods and services. Correcting the issues identified will require a
                    strong, sustained commitment from Charleston VAMC management to
                    improve training for cardholders and strengthen oversight over Engineering
                    Service’s use of purchase cards.




VA Office of Inspector General                                                                   6
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    Recommendations

                    1.		 We recommended the Veterans Integrated Service Network 7 Director
                         use data mining and detailed reviews of high risk transactions to review
                         Charleston VA Medical Center Engineering Service’s micro-purchase
                         card transactions made from October 2011 through December 2013 to
                         identify unauthorized commitments, and submit ratification requests for
                         the unauthorized commitments identified by the Office of Inspector
                         General and by Veterans Integrated Service Network 7 to the Veterans
                         Health Administration Head of Contracting Activity.

                    2.		 We recommended the Veterans Integrated Service Network 7 Director
                         use data mining and detailed reviews of high-risk transactions to review
                         Charleston VA Medical Center Engineering Service’s micro-purchase
                         card transactions made from October 2011 through December 2013 for
                         purchases lacking sufficient documentation and take steps to recover
                         identified inappropriate payments.

                    3.		 We recommended the Veterans Integrated Service Network 7 Director
                         develop monitoring mechanisms to ensure Charleston VA Medical
                         Center Engineering Service approving officials consistently use Veterans
                         Health Administration’s required Approving Official Checklist to
                         identify split purchases, purchases that exceed the micro-purchase limit
                         for services, and purchases without sufficient documentation.

                    4.		 We recommended the Veterans Integrated Service Network 7 Director
                         ensure Charleston VA Medical Center Engineering Service’s purchase
                         cardholders and approving officials receive required refresher training
                         every 2 years.

Management          The Veterans Integrated Service Network (VISN) 7 Director concurred with
Comments            our recommendations and provided corrective action plans that will address
and OIG
Response
                    our recommendations by September 2014. We will monitor VISN 7’s
                    progress and follow up on implementation of planned corrective actions until
                    all actions are completed. Following is a summary of our response to areas
                    where we disagreed with the positions taken by the VISN 7 Director. See
                    Appendix E for the full text of the VISN 7 Director’s comments.

                    Management Comment: The VISN 7 Director stated the Charleston
                    VAMC leadership team raised concerns regarding the sampling methodology
                    and the accuracy of projections based on the sample size. The Charleston
                    VAMC leadership team asserted the sample size used in our audit was very
                    small among the “other purchases.” The total purchases that met the
                    sampling criteria was 139 out of the universe of 3,543 indicates that
                    approximately 4 percent sample.        They noted we determined that
                    35 purchases or just 1 percent of the total universe failed to comply with


VA Office of Inspector General                                                                   7
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    regulations. They contended that in most statistical reviews, the margin of
                    error is defined as within +/-1-5 percent.

                    They also stated our report did not provide clarity regarding resampling of
                    cancelled orders, and whether the random sample was selected all at once or
                    whether several random samples were selected. They felt their concerns
                    related to the sampling methodology and evidence provided in their
                    comments do not support the estimated dollar amounts in our report.

                    OIG Response: We stratified our sample into three strata and the final
                    sample sizes within each stratum were sufficient to support the projections of
                    the full population used in our report. We believe it is not appropriate to
                    judge sample size based on the percent of the population. In accordance with
                    accepted sampling procedures, a sample size of 30 is required for almost any
                    population to ensure that the sampling distribution is normal and our sample
                    of 139 purchases significantly exceeded the minimum requirement.

                    Cancelled orders did not affect our sample because we replaced these orders
                    with the next random order. We selected only one random sample within
                    each stratum. Our analyses fully accounted for the complexity of the sample
                    design in the estimation. In addition, we used an estimation methodology
                    that employs “replication” to correctly account for the complexity of the
                    sample design to compute conservative estimates of the variance for sample
                    projections.

                    Management Comment: The VISN 7 Director stated VHA’s “Handbook
                    1730.01 defines Split or Fragmented Orders as “orders in which the
                    cardholder modifies the requirement by splitting or fragmenting the
                    requested supplies or item quantity into multiple purchases to circumvent
                    their micro-purchase limit or warrant authority limit.”” He asserted that
                    many of the purchases we identified as “split” involved different tasks such
                    as different activities of work that did not require a duty to combine them by
                    the purchase card clerk. He further stated that there is no official definition
                    of duty to combine referenced in the handbook, directive, or training.

                    OIG Response: We reiterate that Charleston VAMC Engineering Service
                    employees inappropriately split purchases. Engineering Service cardholders
                    made these purchases with the same vendor on the same day for dollar
                    amounts sometimes just under established spending limits only minutes
                    apart. Regardless of whether or not the purchases involved different
                    activities of work, when practicable, FAR requires agencies to procure
                    supplies in quantities that will result in the total cost and unit cost most
                    advantageous to the Government. Consequently, when supplies or services
                    are needed for different activities of work, and the combined orders will
                    exceed cardholder micro-purchase limits, cardholders should request their
                    contracting office to procure the supplies or services. This will help ensure
                    compliance with FAR acquisition and competition requirements designed to

VA Office of Inspector General                                                                   8
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    ensure Federal agencies procure supplies and services at costs that are fair,
                    reasonable, and most advantageous to the Government.

                    Management Comment: The VISN 7 Director stated there is no VHA
                    Directive requirement mandating that approving officials consistently use a
                    checklist for every purchase order.

                    OIG Response: The VISN7 Director is incorrect. VHA’s Procurement and
                    Logistics Office Standard Operating Procedure Purchase Card Program
                    #002, Implementation and Monitoring of the Approving Official Checklist,
                    approved June 25, 2010, requires approving and alternate officials to use the
                    checklist as a guide for every transaction they approve.




VA Office of Inspector General                                                                   9
                   Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Appendix A           Background

Oversight            The Veterans Integrated Service Network 7 Head of Contracting Activity is
Responsibilities     responsible for coordinating the implementation and oversight of purchase
                     card practices throughout the network.

Facility             The Charleston VAMC reported serving over 53,000 veterans in 22 counties.
Overview             The VAMC provides medical, surgical, and psychiatric inpatient care, as
                     well as outpatient primary and mental health care. Annually, the VAMC
                     also reported providing more than 659,000 outpatient visits and
                     approximately 4,300 inpatient stays.

Engineering          As of June 2013, the Charleston VAMC Engineering Service had
Service              73 employees. Engineering Service had 14 cardholders with 22 purchase
Workforce
                     cards and 5 approving officials. All cardholders had micro-purchase card
                     single purchase limits of $3,000 with monthly limits ranging from $17,000 to
                     $300,000.

Purchase Card        Purchase cards reduce administrative costs for the acquisition of supplies and
Requirements         services, streamline payment procedures, and improve management controls
                     by providing procedural checks and feedback. The Office of Management
                     and Budget Circular A-123, Appendix B, Improving the Management of
                     Government Charge Card Programs provides Government-wide charge card
                     program requirements and guidance, standard minimum requirements, and
                     suggested best practices. In addition, the Government Charge Card Abuse
                     Prevention Act of 2012 requires Federal agencies to review Government
                     purchase cards practices to prevent abuse of purchase card use and
                     establishes penalties for misuse of purchase cards.




VA Office of Inspector General                                                                   10
                   Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Appendix B           Scope and Methodology

Scope                We conducted our audit from May 2013 through February 2014. The audit
                     focused on a universe of about 4,000 micro-purchases, which totaled
                     about $3.4 million.       The    purchases    were     made     from
                     October 2011 through May 2013.     We used VA’s Veterans Health
                     Information Systems and Technology Architecture to identify these
                     purchases.

                     We interviewed VHA’s National Purchase Card Manager and the Veterans
                     Integrated Service Network 7’s Purchase Card Coordinator. In addition, we
                     interviewed Charleston VAMC senior officials and managers; the Purchase
                     Card Coordinator; fiscal, contracting, and logistics officials; and Engineering
                     Service managers, cardholders, and approving officials who participated in
                     the process of making the sampled purchases. We conducted onsite audit
                     work during two Charleston VAMC site visits in June 2013.

Methodology          To accomplish the audit objective, we reviewed applicable Federal
                     regulations and VHA policies, procedures, and handbooks related to
                     purchase card management. We also audited 139 sampled purchases from
                     the universe of about 4,000 purchases—132 selected statistically and
                     7 selected non-statistically. When appropriate, we also contacted vendors.
                     For each of the 139 sampled purchases, we reviewed purchase orders,
                     invoices, and other available supporting documentation. Appendix C
                     provides details on the statistical sampling methodology and projections.

Fraud                The audit team assessed the risk of fraud, violations of legal and regulatory
Assessment           requirements, and abuse. The audit team exercised due diligence in staying
                     alert to any fraud indicators by taking actions, such as:

                        Soliciting the OIG’s Office of Investigations for indicators
                        Reviewing prices, assessing appropriate reconciliations and certifications
                         of purchase orders, and verifying VAMC Charleston used purchases of
                         goods or services for legitimate Government needs

                     We did not identify any instances of fraud during this audit.

Data Reliability     We used computer-processed data from VA’s Veterans Health Information
                     Systems and Technology Architecture during the audit. To test the reliability
                     of this data, we compared the computer-processed data with hard-copy
                     documentation, such as purchase orders and vendor invoices.              We
                     determined the Veterans Health Information Systems and Technology
                     Architecture data were sufficiently reliable for the audit objective.

                     We also used computer-processed data from VA’s Talent Management
                     System to validate cardholder and approving officials purchase card training.

VA Office of Inspector General                                                                   11
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    To test the reliability of these data, we compared the computer-processed
                    data with training certificates. Based on this assessment, we determined the
                    data from the Talent Management System were sufficient for the purposes of
                    our audit.

Government          Our assessment of internal controls focused on those controls related to our
Standards           audit objective. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions on our audit objective.




VA Office of Inspector General                                                                  12
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Appendix C          Statistical Sampling Methodology

Approach            To evaluate the allegation that Charleston VAMC Engineering Service
                    employees split purchases and to identify additional inappropriate use of
                    purchase cards, we reviewed a representative sample of purchase card
                    transactions below the $3,000 micro-purchase threshold. We used statistical
                    sampling to quantify the extent of inappropriate purchases that cardholders
                    could have made with a purchase card and to project potential monetary
                    benefits.

Universe            The     universe   included   about    4,000    purchases below   the
                    $3,000 micro-purchase threshold made by Charleston VAMC Engineering
                    Service cardholders from October 2011 through May 2013. The total for
                    these purchases was approximately $3.4 million.

Sampling            From the universe, we selected a sample of 139 transactions that had a total
Design              value of about $227,000. Of the 139 sampled transactions, we selected
                    132 statistically and 7 non-statistically. We added the seven non-statistically
                    sampled transactions to the projections because they were treated as a
                    certainty stratum. While the seven transactions were included in the overall
                    projections, they did not represent any other transactions in the universe.

                    We stratified the universe of transactions into three strata. The first stratum
                    included purchases that cardholders made on the same day, with the same
                    vendor, where the total dollar amount of the purchases exceeded the
                    $3,000 micro-purchase limit. The second stratum included the remaining
                    purchases from the universe, except for the seven non-statistical purchases.
                    The third stratum included these seven purchases. Table 1 provides the
                    number of reviewed purchases for the three strata.

                                       Table 1. Purchases Reviewed by Strata
                                                                      Reviewed
                                       Strata                                           Universe
                                                                      Purchases
                      1. Potential Split Purchases                         95              409
                      2. Other Purchases                                   37            3,543
                          Sub-total                                       132            3,952
                      3. Non-Statistical                                    7                7
                          Total                                           139            3,959
                     Source: VA OIG statistical sampling of Charleston VAMC purchases

Weights             We computed sampling weights as a product of the inverse of the probability
                    of selection at each stage of sampling. We used these weights to compute
                    universe estimates from the sample findings.

VA Office of Inspector General                                                                     13
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Projections         We used WesVar software to calculate the weighted universe estimates and
and Margins of      associated sampling errors. WesVar employs replication methodology to
Error
                    calculate margins of error and confidence intervals that correctly account for
                    the complexity of the sample design.

                    Margins of error and confidence intervals are indicators of the estimates’
                    precision. If we repeated this audit with multiple samples, the confidence
                    intervals would differ for each sample, but would include the true universe
                    value 90 percent of the time. For example, we are 90 percent confident the
                    true universe of micro-purchases that were potentially unauthorized
                    commitments is between $274,000 and $446,000. For each estimate, we
                    used the lower limit of the 90 percent confidence interval. Table 2 shows the
                    audit projections and number of sampled Charleston VAMC Engineering
                    Service transactions for the attributes described.

                                 Table 2. Projections of Inappropriate Purchases Card Use for


                                            Charleston VAMC Engineering Service


                                                   (October 2011–May 2013)


                                                                      90%
                                                                                     90%             Sample
                                                                   Confidence
                                                      Margin of                   Confidence       Transactions
                       Description        Estimated                 Interval
                                                       Error                       Interval           With
                                                                     Lower
                                                                                  Upper Limit       Condition
                                                                     Limit
                      Unauthorized
                      Commitments         $360,000     $85,600      $274,000        $446,000            40
                      Value
                      Unauthorized
                      Commitments           11%          3%            8%              14%
                      Percent
                      Lacked
                      Sufficient
                      Supporting          $768,000    $396,000      $372,000       $1,200,000           33
                      Documentation
                      Value
                      Lacked
                      Sufficient
                      Supporting            23%         11%            11%             34%
                      Documentation
                      Percent
                      Combined
                                         $1,100,000   $400,000      $660,000       $1,500,000           65
                      Value
                      Combined
                                           32% *        11%            20%             43%
                      Percent
                    Source: VA OIG statistical analysis of Charleston VAMC purchases
                    Note: Numbers are rounded for report presentation. Also, the lower limit of the combined
                    total does not equal the sum of the two lower limits for unauthorized commitments and
                    purchases that lacked sufficient supporting documentation. This is because these are three
                    independent sample estimates.
                    (*Corrected, see page ii)


VA Office of Inspector General                                                                               14
                   Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Appendix D           Potential Monetary Benefits in Accordance With
                     Inspector General Act Amendments



                                                                             Better Use of          Questioned
     Recommendation                 Explanation of Benefits
                                                                                Funds                 Costs


                             Reviewing Charleston VAMC, 

                             Engineering Service purchase 

              1	             card transactions for unauthorized                    $0                 $274,000
                             commitments and performing
                             ratification actions.

                             Reviewing Charleston VAMC, 

                             Engineering Service purchase card 

                             transactions for purchases lacking 

              2	                                                                   $0                 $372,000
                             sufficient documentation and 

                             pursuing recovery for inappropriate 

                             payments. 


                                                                 Total             $0                $660,0002




                     2
                       The questioned costs are based on the lower limit of a 90 percent confidence interval. As
                     illustrated in Table 2, the lower limit of the combined total does not equal the sum of the two
                     lower limits for unauthorized commitments and purchases that lacked sufficient supporting
                     documentation. This is because these are three independent sample estimates.

VA Office of Inspector General                                                                                   15
                       Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Appendix E               Veterans Integrated Service Network 7 Director
                         Comments



                  Department of                                     Memorandum
                  Veterans Affairs
          Date:		      March 27, 2014


          From:		      Network Director, VA Southeast Network (10N7)


          Subj:		      Draft Report, Audit of VHA’s Purchase Card Practices, Ralph H. Johnson VA
                       Medical Center, Charleston, SC., Project Number 2013-02668-R3-0136

            To:        VA OIG - Office of Audits and Evaluations


                    1. 	 I have reviewed the draft report of the Assistant Inspector General for Audits
                         and Evaluations for Ralph H. Johnson VA Medical Center Engineering
                         Service. Although we concur with the recommendations, we do not agree
                         with all of the findings. Specifically, we are not in agreement with the
                         number of purchases that were cited as being inappropriate or split
                         purchases.

                    2. 	 In addition, I am aware that the Charleston leadership team raised concerns
                         regarding the sampling methodology and the accuracy of projections based
                         on the sample size. The sample size used in this audit was very small
                         among the “Other Purchases.” The total purchases that met the sampling
                         criteria was 139 out of the universe of 3543 indicates that approximately 4
                         percent sample. You determined that 35 purchases or just 1% of the total
                         universe failed to comply with regulations. In most statistical reviews the
                         margin of error is defined as within +/-1-5 %. The 35 purchases identified as
                         deficient certainly would fall within that typical range of error.

                    3. 	We also contend that this was not a large enough sample to be a
                        representative sample of the all purchases. The report did not provide clarity
                        regarding resampling of cancelled orders, and it is not clear if this is
                        accounted for in subsequent analyses. The total population of purchase
                        orders becomes unclear when cancelled orders are re-sampled. In addition,
                        it is also unclear whether the random sample was selected all at once or
                        whether several random samples were selected. If several random samples
                        were selected, it is unclear whether analyses fully accounted for the
                        sampling strategy employed. This concern related to sampling methodology
                        and evidence provided in this response does not support the estimated dollar
                        amounts in the draft report.




VA Office of Inspector General                                                                            16
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC




               4. 		VISN 7 and our facilities continuously strive to improve our outcomes,
                    efficiency and accuracy, therefore we appreciate any opportunity to exam
                    our performance. I appreciate the opportunity to review the draft report and
                    provide supporting documentation. Please contact Dr. Robin Hindsman with
                    any questions 678-924-5723.




                   Attachment




VA Office of Inspector General                                                                     17
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


                    VETERANS INTEGRATED SERVICE NETWORK 7 

                                  Action Plan 


OIG Draft Report, Audit of Engineering Service                      Purchase    Card     Practices,
Ralph H. Johnson VA Medical Center, Charleston, SC

Date of Draft Report: February 19, 2014

Recommendations/                               Status                     Completion
Actions                                                                   Date

Recommendation 1: We recommend the Veterans Integrated Service Network 7 Director
use data mining and detailed reviews of high risk transactions to review Charleston VA
Medical Center Engineering Service’s micro-purchase card transactions made from
October 2011 through December 2013 to identify unauthorized commitments, and submit
ratification requests for the unauthorized commitments identified by the Office of
Inspector General and by Veterans Integrated Service Network 7 to the Veterans Health
Administration Head of Contracting Activity.

Concur - with Stipulations

                                               In process                 September 30, 2014

We will use data mining to review the Charleston VA Medical Center Engineering Service’s
high risk transactions for a Reasonable Sample from October 2011 through December 2013 and
submit ratification requests for any unauthorized commitments to Contracting. The methodology
for defining the specific targeted purchases to be reviewed is yet to be developed. We are
looking for a process that has sufficient specificity to provide only those records that require
review. We propose that we review further with the OIG the timeframe for which this type of
review would be relevant.

Stipulations: The audit found that 35 purchase card orders or approximately 1 percent of
purchase card practices were deficient. It’s our contention that this is an insufficient number to
be an accurate representative sample of the total purchases from 2011-2013. It’s our intention to
use a Vista fileman routine to identify high risk transactions transaction within this two year time
frame and review than 15% of these purchases and make needed ratifications.

Comments: VHA Handbook 1730.01 defines Split or Fragmented Orders as “orders in which
the cardholder modifies the requirement by splitting or fragmenting the requested supplies or
item quantity into multiple purchases to circumvent their micro-purchase limit or warrant
authority limit.” Many of the purchases identified as “split” involved different tasks such as
different activities of work that did not require a duty to combine them by the purchase card
clerk. There is no official definition of duty to combine referenced in the handbook, directive or
training.

Recommendation 2: We recommend the Veterans Integrated Service Network 7 Director
use data mining and detailed reviews of high risk transactions to review Charleston VA

VA Office of Inspector General                                                                   18
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Medical Center Engineering Service’s micro-purchase card transactions made from
October 2011 through December 2013 for purchases lacking sufficient documentation and
take steps to recover identified inappropriate payments.

Concur

                                              In process                 September 30, 2014

Using the same data mining from recommendation #1 we will review supporting documentation
of those purchases and take steps to recover inappropriate payments.

Comments:

33 purchases were identified with insufficient documentation. We concurred with 11 of these in
the findings.

Recommendation 3: We recommend the Veterans Integrated Service Network 7 Director
develop monitoring mechanisms to ensure Charleston VA Medical Center Engineering
Service approving officials consistently use Veterans Health Administration’s required
Approving Official Checklist to identify split purchases, purchases that exceed the micro-
purchase limit for services, and purchases without sufficient documentation.

Concur- with Stipulations

                                              In process                 July 30, 2014

Stipulations: There is no VHA Directive requirement mandating that approving officials (AOs)
consistently use a checklist for every purchase order. Currently, the use of the checklist is
recommended for training and guidance for new AOs as referenced in VHA’s Procurement and
Logistics Office Standard Operating Procedure Purchase Card Program #002 Implementation
and Monitoring of the Approving Official Checklist.

We do agree that retraining Charleston’s AOs will improve their accuracy when reviewing
purchase card orders. We will provide refresher education to each AO using the referenced
checklist and require that each AO use the checklist on no less than 10 approvals per week for 30
days. Each AO will submit copies of their weekly checklist to the Facility and VISN Purchase
Card Coordinators for review. The VISN Contracting Purchase Card Coordinator will also
conduct a monthly audit of no less than five purchase card approvals per AO using the
referenced checklist to document and track compliance.




VA Office of Inspector General                                                                  19
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC


Recommendation 4: We recommend the Veterans Integrated Service Network 7 Director
ensure Charleston VA Medical Center Engineering Service’s purchase cardholders and
approving officials receive required refresher training.

Concur

                                                                         Completed

The Facility and VISN 7 Purchase Card Coordinators will maintain a tracking database of the
TMS Online Purchase Card Training completion dates and subsequent refresher due dates for all
cardholders and approving officials. Required employees and supervisors will be notified at 60
days prior to expiration. All employees will be required to complete the required training no less
than 30 days prior to expiration. Any employee who fails to complete this training will have their
privileges revoked until the training has been completed.




VA Office of Inspector General                                                                  20
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC




Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	               For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                      Acknowledgments             Kent Wrathall, Director
                                                  Nick Dahl
                                                  Michael Derick
                                                  Benjamin Howe
                                                  Rachel Stroup
                                                  Al Tate
                                                  Nelvy Viguera Butler
                                                  Herman Woo




VA Office of Inspector General                                                                  21
                  Audit of VHA’s Engineering Service Purchase Card Practices at VAMC Charleston, SC




Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Office of General Counsel
                    Director, VA Veterans Integrated Service Network 7
                    Director, Ralph H. Johnson, VA Medical Center, Charleston, SC

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




           This report is available on our Web site at http://ww.va.gov/oig.




VA Office of Inspector General                                                                  22
